Case: 19-14746

Date (1
Filed:
of 10)
07/02/2020

Page: 1 of 9

Pet. App. 1a

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14746
Non-Argument Calendar
________________________
D.C. Docket Nos. 1:16-cv-00517-MHT-CSC,
1:13-cr-00107-MHT-CSC-1

MILAS ANTWON GRANT, III,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(July 2, 2020)
Before JORDAN, BRANCH and FAY, Circuit Judges.
PER CURIAM:
Milas Antwon Grant, III, appeals the district court’s denial of his 28 U.S.C.
§ 2255 motion to vacate his conviction under 18 U.S.C. § 924(c). We affirm.

Case: 19-14746

Date (2
Filed:
of 10)
07/02/2020

Page: 2 of 9

I. BACKGROUND
In 2013, a grand jury indicted Grant, individually, with: (1) aiding and
abetting the robbery of a Dollar General employee by threatened force, violence,
and fear of injury, in violation of 18 U.S.C. §§ 2 and 1951 (count one); and (2)
aiding and abetting the knowing use and carrying of a firearm during the Dollar
General bank robbery, in violation of 18 U.S.C. §§ 2 and 924(c)(1)(A)(ii) (count
two). The grand jury also indicted Grant and his codefendant, Throne Smiley,
with: (1) aiding and abetting the robbery of a Hobo Pantry employee by threatened
force, violence, and fear of injury, in violation of 18 U.S.C. §§ 2 and 1951 (count
three); and (2) aiding and abetting the knowing use and carrying of a firearm
during the Hobo Pantry bank robbery, in violation of 18 U.S.C. §§ 2 and
924(c)(1)(A)(ii) (count four).
Pursuant to a plea agreement, Grant pled guilty to two counts of Hobbs Act
robbery (counts one and three) and one count of discharging a firearm in
furtherance of a crime of violence (count three). Grant’s plea agreement contained
an appeal waiver waiving his right to appeal his sentence or collaterally attack his
conviction and sentence in any post-conviction proceeding, except for postconviction ineffective assistance of counsel or prosecutorial misconduct claims.
During Grant’s change of plea hearing before a magistrate judge, he testified to the
following. He was pleading guilty to counts one, two, and three, and he
2

Case: 19-14746

Date (3
Filed:
of 10)
07/02/2020

Page: 3 of 9

understood that count two was a consecutive sentence. He understood that his plea
agreement contained a collateral attack waiver except for in the instance of an
ineffective assistance or prosecutorial misconduct claim.
According to the factual basis for the plea, in April 2013, Grant and Smiley,
who was carrying a gun, entered a Dollar General. Smiley fired the gun as he
entered the store and used the gun to strike a Dollar General employee. Grant and
Smiley then robbed the Dollar General employee and took U.S. currency that had
traveled in interstate commerce. In May 2013, Grant and Smiley, who was again
carrying a gun, entered a Hobo Pantry. Smiley fired the gun as he entered the store
and used the gun to strike a Hobo Pantry employee. Grant and Smiley then robbed
the Hobo Pantry employee and took U.S. currency that had traveled in interstate
commerce.
Grant admitted that he robbed those stores “knowingly and willfully.” Grant
pled guilty and did not make any objections during his change of plea hearing.
The district court sentenced Grant to 240 months of imprisonment. That
sentence consisted of two concurrent 120-month sentences on counts one and
three, and one consecutive 120-month sentence on count two. The district court
entered judgment and Grant did not appeal.
In 2016, Grant filed a counseled 28 U.S.C. § 2255 motion to vacate his §
924(c) conviction. Grant argued that the Supreme Court’s holding in Johnson v.
3

Case: 19-14746

Date (4
Filed:
of 10)
07/02/2020

Page: 4 of 9

United States, 135 S. Ct. 2551 (2015), which invalidated for vagueness the residual
clause of the Armed Career Criminal Act’s definition of “violent felony,” also
rendered unconstitutional the residual clause of § 924(c)(3)(B)’s definition of a
“crime of violence” because its language was nearly identical. He contended that
his conviction for aiding and abetting Hobbs Act robbery could have qualified as a
crime of violence under only the residual clause and, because Johnson rendered
that clause unconstitutional, no predicate offense remained to support his § 924(c)
conviction for carrying a firearm in connection with a crime of violence.
The government responded to Grant’s motion, first arguing that Grant’s
motion was time-barred as he did not file his motion within one year of his
conviction and the Supreme Court’s decision in Johnson did not create a new
constitutional right that was previously unavailable. Next, the government argued
that Grant’s motion was procedurally barred because he did not raise the crime-ofviolence issue in the district court and did not seek appellate review. Finally, the
government argued that Grant’s motion failed on the merits because aiding and
abetting Hobbs Act robbery is a crime of violence under this Court’s precedent.
A magistrate judge then issued a report and recommendation (“R&R”)
recommending that the district court deny Grant’s motion. The magistrate judge
noted that Johnson potentially invalidated § 924(c)(3)(B)’s residual clause;
however, the judge found that, under our precedent, aiding and abetting Hobbs Act
4

Case: 19-14746

Date (5
Filed:
of 10)
07/02/2020

Page: 5 of 9

robbery qualified as a crime of violence under § 924(c)(3)(A)’s elements clause
and Grant’s § 924(c) conviction was therefore still valid following Johnson.
Grant objected to the R&R, arguing that the magistrate judge erred in
concluding that his aiding and abetting Hobbs Act robbery conviction was a crime
of violence in light of Johnson. Grant argued that the magistrate judge erred by
relying on our precedent decided in the context of applications for leave to file a
second or successive § 2255 motion. Grant argued that 18 U.S.C. § 1951 was
overbroad because it could be violated by a defendant who took property without
threatening violent force capable of causing injury. Following the Supreme
Court’s decision in Stokeling v. United States, 139 S. Ct. 544 (2019), Grant filed a
supplement to his objections arguing that Stokeling did not foreclose his motion
because § 924(c) does not specifically discuss robbery and Hobbs Act robbery
does not necessarily require the use of force.
The district court overruled those objections, adopted the R&R, and denied
Grant’s § 2255 motion. Grant timely filed a notice of appeal and a motion for a
certificate of appealability (“COA”). The district court granted that motion and
issued a COA as to whether Grant’s § 924(c) conviction is unconstitutional in light
of Johnson and United States v. Davis, 139 S. Ct. 2319 (2019). Grant contends
that his § 924(c) conviction must be vacated because the predicate offense for

5

Case: 19-14746

Date (6
Filed:
of 10)
07/02/2020

Page: 6 of 9

which he was also convicted, aiding and abetting Hobbs Act robbery, is not a
“crime of violence” under § 924(c)(3).
II. DISCUSSION
When reviewing a district court’s denial of a 28 U.S.C. § 2255 motion, we
review questions of law de novo and factual findings for clear error. Lynn v.
United States, 365 F.3d 1225, 1232 (11th Cir. 2004).
Section 924(c) of Title 18 of the United States Code criminalizes the use or
carrying of a firearm in furtherance of a crime of violence or drug trafficking
crime. “Crime of violence” is defined as a felony offense that either
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or (B) that by
its nature, involves a substantial risk that physical force against the
person or property of another may be used in the course of committing
the offense.
18 U.S.C. § 924(c)(3).
Recently, in Davis, the Supreme Court held that § 924(c)(3)(B)’s residual
clause is unconstitutionally vague. Davis, 139 S. Ct. at 2323, 2336. And we
recently held that Davis announced “a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously
unavailable.” In re Hammoud, 931 F.3d 1032, 1035, 1039 (11th Cir. 2019)
(quoting 28 U.S.C. § 2255(h)(2)).

6

Case: 19-14746

Date (7
Filed:
of 10)
07/02/2020

Page: 7 of 9

Section 1951 of Title 18 of the United States Code criminalizes the actions
taken by any person who: “obstructs, delays, or affects commerce . . . by robbery . .
. or commits or threatens physical violence to any person or property in furtherance
of a [robbery].” 18 U.S.C. § 1951(a). Section 2 of Title 18 of the United States
Code states that anyone who “aids” or “abets” an “offense against the United
States . . . is punishable as a principal.” 18 U.S.C. § 2(a). Because aiding and
abetting “is not a separate federal crime, but rather an alternative charge that
permits one to be found guilty as a principal,” we have held that aiding and
abetting Hobbs Act robbery qualifies as a crime of violence under § 924(c)(3)(A)’s
elements clause. In re Colon, 826 F.3d 1301, 1305 (11th Cir. 2016) (quoting
United States v. Sosa, 777 F.3d 1279, 1292 (11th Cir. 2015)). We stated that
nothing in the text of § 924(c)(1) indicated that Congress intended for the statute to
only apply to principals, and not to aiders and abettors. Id. Thus, we held that “an
aider and abettor of a Hobbs Act robbery necessarily commits all the elements of a
principal Hobbs Act robbery.” Id.
In re Colon was decided in the context of an application to file a successive
§ 2255 motion. See id. However, we have held that “law established in published
three-judge orders issued pursuant to 28 U.S.C. § 2244(b) in the context of
applications for leave to file second or successive § 2255 motions is binding
precedent on all subsequent panels of this Court.” United States v. St. Hubert, 909
7

Case: 19-14746

Date (8
Filed:
of 10)
07/02/2020

Page: 8 of 9

F.3d 335, 346 (11th Cir. 2018), abrogated in part on other grounds by Davis, 139
S. Ct. at 2324, 2336.
Grant has not shown that he is entitled to relief under Davis. Because aiding
and abetting § 1951(a) Hobbs Act robbery is a crime of violence under §
924(c)(3)(A)’s elements clause, In re Colon, 826 F.3d at 1305, Grant’s argument is
foreclosed by our binding precedent. That In re Colon was decided in the
successive application context does not lessen the precedential value of that
decision. See St. Hubert, 909 F.3d at 346.
Grant’s arguments regarding the application of Rosemond v. United States,
572 U.S. 65, 134 S. Ct. 1240 (2014), and its purported conflict with In re Colon are
likewise foreclosed by precedent. We decided In re Colon two years after the
Supreme Court’s decision in Rosemond, and In re Colon has not been overruled or
undermined to the point of abrogation by a later decision of this Court sitting en
banc or the Supreme Court. Compare In re Colon, 826 F.3d at 1305 (recognizing
that an aider and abettor of an offense necessarily commits all the elements of the
principal offense), with Rosemond, 572 U.S. at 73, 134 S. Ct. at 1246 (recognizing
that a “defendant can be convicted as an aider and abettor without proof that he
participated in each and every element of the offense”). Thus, under our prior
panel precedent rule, In re Colon is binding in this case even if it was wrongly
decided. See Chambers v. Thompson, 150 F.3d 1324, 1326 (11th Cir. 1998)
8

Case: 19-14746

Date (9
Filed:
of 10)
07/02/2020

Page: 9 of 9

(stating that we are bound by a prior panel’s holding “except where that holding
has been overruled or undermined to the point of abrogation by a subsequent en
banc or Supreme Court decision”). Furthermore, in 2019, we applied In re Colon
in a published opinion and held that aiding and abetting a carjacking was a crime
of violence under § 924(c)’s elements clause. See Steiner v. United States, 940
F.3d 1282, 1294 (11th Cir. 2019) (applying In re Colon and St. Hubert and also
discussing Rosemond at length). Accordingly, we affirm the district court’s denial
of Grant’s § 2255 motion.
AFFIRMED.

9

Case: 19-14746

Date(10
Filed:
of 10)
07/02/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

July 02, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-14746-DD
Case Style: Milas Grant, III v. USA
District Court Docket No: 1:16-cv-00517-MHT-CSC
Secondary Case Number: 1:13-cr-00107-MHT-CSC-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system,
unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by
registering for an account at www.pacer.gov. Information and training materials related to electronic filing, are
available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has
this day been entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing
en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for
rehearing or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules.
Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and
an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In
addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for
rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on
the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for
writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature
block below. For all other questions, please call Bradly Wallace Holland, DD at 404-335-6181.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 1:16-cv-00517-MHT-CSC Document 22 Filed 09/25/19 Page 1 of 2
Pet. App. 1b

IN THE DISTRICT COURT OF THE UNITED STATES FOR THE
MIDDLE DISTRICT OF ALABAMA, SOUTHERN DIVISION

MILAS ANTWON GRANT, III,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MILAS ANTWON GRANT, III,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
1:16cv517-MHT
(WO)

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
1:16cv507-MHT
(WO)

OPINION
Pursuant to 28 U.S.C. § 2255, petitioner, a federal
inmate, filed this lawsuit seeking habeas relief.

This

lawsuit is now before the court on the recommendation
of the United States Magistrate Judge that the § 2255
petition

be

denied.

Also

before

the

court

are

Case 1:16-cv-00517-MHT-CSC Document 22 Filed 09/25/19 Page 2 of 2

petitioner’s objections to the recommendation.

After

an independent and de novo review of the record, the
court concludes that petitioner’s objections should be
overruled

and

the

magistrate

judge’s

recommendation

adopted.
An appropriate judgment will be entered.
DONE, this the 25th day of September, 2019.
/s/ Myron H. Thompson
UNITED STATES DISTRICT JUDGE

Case 1:16-cv-00517-MHT-CSC Document 27 Filed 11/27/19 Page 1 of 1
Pet. App. 1c

IN THE DISTRICT COURT OF THE UNITED STATES FOR THE
MIDDLE DISTRICT OF ALABAMA, SOUTHERN DIVISION

MILAS ANTWON GRANT, III,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO.
1:16cv517-MHT

ORDER
It

is

ORDERED

that

petitioner's

motion

for

certificate of appealability (doc. no. 24) is granted
as

to

the

following

issue:

whether

petitioner’s

18

U.S.C. § 924(c) conviction is unconstitutional in light
of Johnson v. United States, 135 S. Ct. 2551 (2015)
and/or United States v. Davis, 139 S. Ct. 2319 (2019).
DONE, this the 26th day of November, 2019.
/s/ Myron H. Thompson
UNITED STATES DISTRICT JUDGE

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 1 of 6
Pet. App 1d

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
SOUTHERN DIVISION
MILAS ANTWON GRANT, III,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Civil Action No. 1:16cv517-MHT
[WO]

RECOMMENDATION OF THE MAGISTRATE JUDGE
Before the court is federal inmate Milas Antwon Grant, III’s motion under 28 U.S.C.
§ 2255 to vacate, set aside, or correct sentence. Doc. # 1.1
I. INTRODUCTION
On February 28, 2014, Grant pleaded guilty to two counts of aiding and abetting a
Hobbs Act robbery, in violation of 18 U.S.C. § 1951 (Counts 1 and 3), and one count of
brandishing and discharging a firearm during a crime of violence, in violation of 18 U.S.C.
§ 924(c)(1)(A)(iii) (Count 2). The aiding and abetting Hobbs Act robbery charged in Count
1 served as the predicate “crime of violence” for Grant’s § 924(c) conviction. See Doc. #
7-1 at 1–2. After a sentencing hearing on June 25, 2014, the district court sentenced Grant
to 240 months in prison, consisting of 120 months on Counts 1 and 3, to be served

1

References to “Doc(s). #” are to the document numbers of the pleadings, motions, and other materials in
the court file, as compiled and designated on the docket sheet by the Clerk of Court. Pinpoint citations are
to the page of the electronically filed document in the court’s CM/ECF filing system, which may not
correspond to pagination on the “hard copy” of the document presented for filing.

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 2 of 6

concurrently, and 120 months on Count 2, to be served consecutively to the other counts.
See Doc. # 8-5 at 2. Grant took no appeal.
On June 27, 2016, Grant filed the instant § 2255 motion arguing that, in light of the
Supreme Court’s decision in Johnson v. United States, 135 S. Ct. 2551 (2015), aiding and
abetting Hobbs Act robbery cannot qualify as a predicate “crime of violence” for his §
924(c) conviction, and therefore his conviction and sentence under § 924(c) are invalid.
Doc. # 1.
For the reasons that follow, the court finds that Grant’s § 2255 motion should be
denied and this case dismissed with prejudice.
II. DISCUSSION
Title 18 § 924(c), United States Code, provides in part that a defendant who uses or
carries a firearm “during and in relation to any crime of violence or drug trafficking crime,”
or possesses a firearm in furtherance of such crimes, shall, in addition to the punishment
provided for such crime of violence or drug trafficking crime, be sentenced to a separate
and consecutive term of imprisonment. And if, as here, the firearm is discharged during
the crime, the consecutive sentence shall be “not less than 10 years.” 18 U.S.C. §
924(c)(1)(A)(iii).
For purposes of § 924(c), a “crime of violence” is defined as a felony offense that:
(A)

has as an element the use, attempted use, or threatened use of physical
force against the person or property of another, or

(B)

… by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of
committing the offense.
2

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 3 of 6

18 U.S.C. § 924(c)(3). Subsection (A) of § 924(c)(3) is referred to as the “use-of-force
clause,” and subsection (B) is referred to as the “§ 924(c)(3)(B) residual clause.” See In re
Saint Fleur, 824 F.3d 1337, 1339 (11th Cir. 2016).
A separate but similar sentencing provision, the Armed Career Criminal Act
(“ACCA”), 18 U.S.C. § 924(e),2 defines the term “violent felony” as any crime punishable
by a term of imprisonment exceeding one year that:
(i) has as an element the use, attempted use, or threatened use of physical
force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives; or otherwise
involves conduct that presents a serious potential risk of physical injury to
another.
18 U.S.C. § 924(e)(2)(B). The first prong of this definition, § 924(e)(2)(B)(i), is known as
the “elements clause.” See In re Sams, 830 F.3d 1234 (11th Cir. 2016). The second prong,
§ 924(e)(2)(B)(ii), is split into two clauses. The first part, listing burglary, arson, extortion,
or an offense involving the use of explosives, is known as the “enumerated offenses
clause,” and the second part is known as the “residual clause.” Id.
In Johnson v. United States, decided on June 26, 2015, the United States Supreme
Court held that the residual clause of the ACCA is unconstitutionally vague. See 135 S.Ct.
at 2557–59, 2563. Based on that holding, the Court concluded that “imposing an increased
[ACCA] sentence under the residual clause . . . violates the Constitution’s guarantee of due
process.” Id. at 2563. The Court also stated, “Today’s decision does not call into question
2

Under the ACCA, a defendant who violates 18 U.S.C. § 922(g) (by possessing a firearm as a convicted
felon) and has three prior convictions for a “violent felony” or a serious drug offense is subject to a
mandatory minimum sentence of 15 years’ imprisonment. 18 U.S.C. § 924(e)(1).

3

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 4 of 6

application of the [ACCA] to the four enumerated offenses, or the remainder of the
[ACCA’s] definition of a violent felony.” Id. at 2563.
In April 2016, the Supreme Court held that Johnson announced a new substantive
rule that applies retroactively to cases on collateral review. Welch v. United States, 136
S.Ct. 1257, 1264–65 (2016). In the wake of Johnson and Welch, inmates sentenced as
armed career criminals based on prior convictions deemed “violent felonies” under the
ACCA’s residual clause could challenge their ACCA sentences through § 2255 motions.
Johnson did not address the definition of a crime of violence found in 18 U.S.C. §
924(c). However, Grant argues that the holding in Johnson applies to § 924(c); that
Johnson invalidates the “924(c)(3)(B) residual clause” (whose language is similar to that
of the ACCA’s unconstitutionally vague residual clause); and that aiding and abetting
Hobbs Act robbery does not meet the definition of a crime of violence under the “use-offorce clause” in § 924(c)(3)(A). Thus he argues that his § 924(c) conviction, which relied
on his aiding and abetting a Hobbs Act robbery as the predicate “crime of violence,” cannot
stand.
Whether the holding in Johnson extends to the residual clause in § 924(c)(3)(B) is
currently an open question in the Eleventh Circuit. Until recently, that question seemed to
be settled by Ovalles v. United States, 861 F.3d 1257 (11th Cir. 2017), where the Eleventh
Circuit held that Johnson did not apply to § 924(c) and concluded expressly that “Johnson’s
void-for-vagueness ruling does not apply to or invalidate the ‘risk-of-force’ clause [i.e., the
residual clause] in § 924(c)(3)(B).” 861 F.3d at 1265. On May 15, 2018, however, the
Eleventh Circuit vacated its panel opinion in Ovalles and ordered that the case be reheard
4

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 5 of 6

en banc. Ovalles v. United States, 889 F.3d 1259 (11th Cir. 2018); see Eleventh Circuit
General Order No. 43, May 17, 2018.
That said, the Eleventh Circuit has stated: “Even assuming that Johnson invalidated
§ 924(c)’s residual clause [§ 924(c)(3)(B)], that conclusion would not assist [a defendant
whose] underlying conviction on which his § 924(c) conviction was based . . . [met] the
requirements that the force clause in § 924(c)(3)(A) sets out for a qualifying underlying
offense.” In re Smith, 829 F.3d 1276, 1280 (11th Cir. 2016). The Eleventh Circuit has
held that Hobbs Act robbery is categorically a crime of violence under § 924(c)(3)(A)’s
use-of-force clause. Saint Fleur, 824 F.3d at 1340–41. The Eleventh Circuit has further
held that where the companion substantive conviction qualifies as a crime of violence under
the use-of-force clause in § 924(c)(3)(A), a conviction for aiding and abetting the
companion substantive conviction equally qualifies as a crime of violence under the force
clause. In re Colon, 826 F.3d 1301, 1305 (11th Cir. 2016) (aiding and abetting Hobbs Act
robbery was crime of violence under 924(c)(3)(A)’s use-of-force clause clause because
companion substantive conviction for Hobbs Act robbery was a crime of violence under
the use-of-force clause).
Because binding Eleventh Circuit precedent establishes that aiding and abetting
Hobbs Act robbery is categorically a crime of violence under § 924(c)(3)(A)’s use-of-force
clause, Grant’s conviction and sentence under § 924(c) are still valid following Johnson,
and Grant’s instant claim is foreclosed. And, because Grant’s Johnson claim lacks merit,
there is no need to address the other arguments made by the government.

5

Case 1:16-cv-00517-MHT-CSC Document 12 Filed 07/20/18 Page 6 of 6

III. CONCLUSION
Accordingly, it is the RECOMMENDATION of the Magistrate Judge that the 28
U.S.C. § 2255 motion be DENIED and his case DISMISSED WITH PREJUDICE.
It is further
ORDERED that the parties shall file any objections to this Recommendation or
before August 3, 2018. A party must specifically identify the factual findings and legal
conclusions in the Recommendation to which objection is made; frivolous, conclusive, or
general objections will not be considered.

Failure to file written objections to the

Magistrate Judge’s findings and recommendations in accordance with the provisions of 28
U.S.C. § 636(b)(1) will bar a party from a de novo determination by the District Court of
legal and factual issues covered in the Recommendation and waives the right of the party
to challenge on appeal the District Court’s order based on unobjected-to factual and legal
conclusions accepted or adopted by the District Court except upon grounds of plain error
or manifest injustice. Nettles v. Wainwright, 677 F.2d 404 (5th Cir. 1982); 11th Cir. R. 31. See Stein v. Lanning Securities, Inc., 667 F.2d 33 (11th Cir. 1982). See also Bonner v.
City of Prichard, 661 F.2d 1206 (11th Cir. 1981) (en banc).
DONE this 20th day of July, 2018.

/s/ Charles S. Coody
CHARLES S. COODY
UNITED STATES MAGISTRATE JUDGE

6

